                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A04 120078                                                           11          Page 1 of 1



         A proactive review of participant support costs resulted in collection of records from randomly
         selected grantees. In the present case, those records revealed that the          had reallocated
         participant support costs for other purposes. Investigation established that this reallocation
         occurred without requisite NSF prior approval. Concurrently, we also sought justification from
         the grantee about certain meal expenses incurred in conjunction with the hosted conferences; this
         issue was resolved to our satisfaction.

         In response to our le'iter, the grantee contacted an NSF Program Officer to consult about the
         reasonableness of the expenditures to which the reallocated participant support costs were
         applied. The Program Officer indicated to the grantee what items he theoretically would have
         approved, and those that he would not have approved. The grantee accepted that determination,
         and subsequently issued a check to the National Science ~ o u n d a t i o nfor
                                                                                     ~ the total amount of the
         ~aeallocatedfimds.

         No issue in this case remains unresolved.

          Accordingly, this case is closed.




          1
              Redacted.
              Redacted.
              Redacted.



NSF 01G Form 2 (1 1/02)
